No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
DALLAS RAY MORALES,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT United States Court of Appeals
Fifth Circuit

FILED
No. 20-10029
Summary Calendar

August 25, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
DALLAS RAY MORALES,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-167-1
Before DAVIS, STEWART, and DENNIS, Circuit Judges.
PER CURIAM:*
Dallas Ray Morales appeals his guilty plea conviction for being a felon in
possession of ammunition, in violation of 18 U.S.C. § 922(g)(1). Relying on
National Federation of Independent Business v. Sebelius, 567 U.S. 519 (2012),
Morales argues that § 922(g)(1) is unconstitutional because it exceeds
Congress’s authority under the Commerce Clause to regulate economic
activities. He concedes that this argument is foreclosed by our decision in

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 20-10029
United States v. Alcantar, 733 F.3d 143 (5th Cir. 2013). Citing Alcantar, the
Government moves for summary affirmance or, in the alternative, for an
extension of time in which to file a merits brief.
The Government’s position is “clearly right as a matter of law so that
there can be no substantial question as to the outcome of the case.” Groendyke
Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969); see Alcantar, 733
F.3d at 145-46.

Accordingly, the motion for summary affirmance is

GRANTED. The Government’s alternate motion for an extension of time is
DENIED. The judgment is AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00167-A Document 39 Filed 12/27/19

Page 1 of 5 PageID 92

DEC 2 7 2019

W:ntteb ~tates mtstrtct Ql:o rt
Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

§

v.

§

DALLAS RAY MORALES

§

CLERK,
TCOURT
BY----~~~.,~)UI~.------Case Number: 4:19-CR-167-A(Ol) .

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Matthew Weybrecht.
The defendant, DALLAS RAY MORALES, was represented by Federal Public Defender through
Assistant Federal Public Defender John Stickney.
The defendant pleaded guilty on July 5, 2019 to the one count Superseding Indictment
filed on June 19, 2019. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Title & Section I Nature of Offense
18 U.S.C. § 922(g)(l) Felon in Possession of Ammunition

Date Offense Concluded
February 4, 2019

Count
I

On motion of the United States, the court ORDERS as to this defendant that the original
indictment be, and is hereby, dismissed.
As pronounced and imposed on December 27,2019, the defendant is sentenced as provided
in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 60 months.
The defendant is remanded to the custody ofthe United States Marshal.

Case 4:19-cr-00167-A Document 39 Filed 12/27/19

Page 2 of 5 PageID 93

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
l.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection ofDNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

6.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
l.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau ofPrisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.
2

Case 4:19-cr-00167-A Document 39 Filed 12/27/19

Page 3 of 5 PageID 94

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten ( 10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

3

Case 4:19-cr-00167-A Document 39 Filed 12/27/19

Page 4 of 5 PageID 95

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 27th day of December, 2019.

4

··--·· ··-··- ····-··· ·-- - - -- - - - - - - - - - - - - -- - - - - - - - -

Case 4:19-cr-00167-A Document 39 Filed 12/27/19

Page 5 of 5 PageID 96

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on _ _ _ _ _ _ _, 2019 to _ _ _ _ _ _ _ _ _ _ _ _ __
a t - - - - - - - - - - - - - - - - - - - ' with a certified copy of this Judgment.

United States Marshal for the
Northern District ofTexas
By _______________________________
Deputy United States Marshal

5

